 Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENEML




QUESTIONABLE MEDICARE PAYMENTS

   FOR INCONTINENCE SUPPLIES





                  JUNE GIBBS BROWN
                  Inspector General

                    DECEMBER 1994
                     OEI-03-94-00772
                      OFFICE OF INSPEHOR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the O&e of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The 010’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by othens.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECHONS

The 010’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office, under the direction of Joy Quill, Regional Inspector General and Robert A.
Vito, Deputy Regional Inspector General. Project staff included:

PHILADELPHIA REGION                                 HEADQuARTERs

Robert A. Katz, Project Leader                      Thomas A. Noplock, Ft-ogram Specialist
Robert A. Baiocco, Bogam Analyst                    Brian P. Ritchie, Technical Suppoti Staf
Linda M. Ragone, Rogram AnaZyst                     Barbara Tedesco, Technical Support Staf
Cynthia Hansford, Administrative Staff

To obtain a copy of this repo~ pleasecallthe Philadelphia Regional Office at (S(K))531-9562
               EXECUTIVE                         SUMMARY


PURPOSE

This report examines trends in allowances and questionable billing practices for
incontinence supplies under Medicare Part B between 1990 and 1993.

BACKGROUND

Incontinence is the inability of the body to control urinary and bowel functions.
Under the Medicare Part B program, the Health Care Financing Administration
(HCFA) will reimburse suppliers that provide incontinence supplies to aid individuals
whose incontinence condition “...is of long and indefinite duration.” Such
reimbursement is provided only as part of Medicare’s coverage for prosthetic devices
such as catheters and external urinary collection devices. The HCFA will also
reimburse for accessories, such as irrigation syringes and sterile saline solution, that aid
in the effective and therapeutic use of these devices. Currently, claims are processed
by four Durable Medical Equipment Regional Carriers (DMERCS).

We selected claims for a 1 percent sample of beneficiaries who received one of 43
types of supplies for incontinence care. We arrayed the data by type of supplies,
carrier, and major suppliers. We then analyzed the statistical information to develop
trends. We also applied current and proposed HCFA guidelines for these
incontinence supplies in 1993. We focused on two facets of billing: accessories that
can only be billed with prosthetic devices; and frequency limitations on prosthetic
devices.

FINDINGS

M&iicare albwancesfor tionthence suppliesmore thandimbledin threeyeats &spite a
drop in the numberof benejiciariaurihgtheresupplies.

Incontinence allowances rose from $S8 million in 1990 to $230 million in 1993, an
increase of $142 million. During the same period, the number of beneficiaries
receiving incontinence supplies fell from 312,200 to 292,700. Allowances per
beneficiary increased from $282 to $786.

Four typesof incontinencesuppliesaccountfor abnost ail the increasein M&are
allowanc~.

Between 1990 and 1993, Medicare allowances for irrigation syringes, sterile saline
irrigation solution, lubricant, and female external urinary collection pouches increased
$129 million. This accounts for 91 percent of the $142 million total increase.




                                             i
Questionablebifli.ngpractimx
                           nuryaccountfor abnost half of intontmencealhwancesin
                                                               “
1993.

Medicare allowed $107 million in 1993 for supplies whose billing is questionable.
Almost $88 million was paid for incontinence accessories that were not billed in
conjunction with a prosthetic device. An additional $19 million was paid for
beneficiaries whose utilization of certain prosthetic devices appears excessive. The
allowances were concentrated in one carrier and a small number of suppliers and
beneficiaries.

A proposed changeh HCFA policy willprobab~ add-as qudonable billingpractices.

Inconsistencies and lack of clear utilization guidelines in carrier policies contributed to
the large number of questionable incontinence claims paid by Medicare in 1993. A
proposed draft policy (to be issued by the four Durable Medical Equipment Regional
Carriers) will clari& covered services and provide a mechanism to link incontinence
accessory supplies to prosthetic devices.

NEXT STEPs

IncontinenceSupplies

In response to the information presented in this report and a companion report, the
Office of Inspector General (OIG) plans to:

        o	    initiate an audit review to examine in more detail payments made for
              incontinence supplies in order to determine if any overpayments are
              involved in this arerq and

        o	    launch a national investigation in this area, examining potentially
              fraudulent practices by specific suppliers of incontinence supplies.

We also support ongoing activity in HCFA and the DMERCs to develop more specific
coverage guidelines and educate providers and suppliers about proper billing for such
supplies. We hope the information contained in this report is helpful as they complete
this activity.

OIG Studiesof OtherNumiizgHome Suppl%s

The OIG will continue studies     and audits related to its major initiative examining
services and supplies provided    to Medicare beneficiaries residing in nursing facilities.
As this report and other OIG      work has reflected, the fragmentation of billing for
services and supplies provided    to residents of nursing homes has created a host of
improper incentives for billers   to the Medicare program.




                                               ii
“Bundling”OfServices

We continue to support HCFA’S efforts to pursue a systematic solution to these kinds
of problems through a requirement for “bundling” of services in nursing home settings.
Under such an approach, the nursing home would be responsible for providing
commonly needed services to residents of that facility, rather than allowing for
separate billing by suppliers. Such a solution would eliminate the incentives suppliers
now have to aggressively seek out patients in nursing homes and market their products
inappropriately in those settings. It would also ensure that nursing homes take on
appropriate responsibilities for services and supplies delivered to residents in their
facilities.




                                          .,.
                                          111
                       TABLE                     OF CONTENTS




EXECUTIVE         SUMMARY


INTRODUCTION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1



FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


     Increased spending           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


     Four specific supplies           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


     Questionable       billing practices         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


     Draft DMERC policy                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9



NEXT STEPS          O. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12



APPENDIX


k   Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

                         INTRODUCTION


PURPOSE

This report examines trends in allowances and questionable billing practices for
incontinence supplies under Medicare Part B between 1990 and 1993.

BACKGROUND

MedicareCoverageof IncontinenceSupplies

Incontinence is the inability of the body to control urinary and bowel functions.
Reimbursement for incontinence supplies is included as part of Medicare’s coverage
for prosthetic devices. According to Medicare Carriers Manual section 2130,
“prosthetic devices (other than dental) which replace all or part of an internal body
organ (including contiguous tissue), or replace all or part of the function of a
permanently inoperative or malfunctioning internal body organ are covered when
furnished on a physician’s order.”

Under the Medicare Part B program, the Health Care Financing Administration
(HCFA) will reimburse suppliers that provide incontinence supplies to aid individuals
whose incontinence condition “...is of long and indefinite duration.” Certain items,
such as absorbent undergarments or diapers, are specifically excluded from coverage.

Incontinence supplies include prosthetic devices such as catheters and external urinary
collection devices such as pouches or cups. Catheters are flexible, tubular instruments
used to control urinary flow. The HCFA will also reimburse accessories that aid in
the effective and therapeutic use of these devices. These accessories include items
such as drainage bags, irrigation syringes, sterile saline solutions, and lubricants.
However, accessories are not covered in the absence of a prosthetic device.

Canierl-%xessingof IncontinenceSupply(lkirns

In June 1992, HCFA issued a final rule designating four Durable Medical Equipment
regional carriers (DMERCS) to process all claims for durable medical equipment,
prosthetics, orthotics, and supplies. Effective October 1, 1993, the DMERCS replaced
more than 50 area carriers which had previously processed DME claims. The
geographical areas formerly serviced by the carriers were phased in under the
DMERCS on a staggered basis. Each DMERC issued its own coverage and
reimbursement policies that implement Medicare guidelines.

However, for urological supplies, the DMERCS issued a draft of a single national
policy in October 1994. In addition to redefining and clari&ing some of the definitions
used in claims for incontinence and urological supplies, the policy establishes
documentation requirements for higher than usual quantities of supplies. The non-


                                           1
coverage of diapers and similar absorptive pads is emphasized. The policy also
reinforces the condition of “permanence” for coverage purposes and stresses that
accessories not used in conjunction with covered catheters or external urinary
collection devices are not covered.

Mdicare FraudAlert

One DMERC issued a Medicare Fraud Alert in June 1994 describing a supplier
scheme involving the marketing of incontinence kits to nursing homes. In this case,
the supplier advised nursing home officials that Medicare was paying for the kits under
a “pilot program.” According to the alert, supplier representatives provide kits
containing accessories such as syringes, saline solution, and lubricants, to the nursing
home in exchange for beneficiary names and Medicare health insurance claim
numbers. The marketing representative then orders bulk quantities of supplies billed
under the beneficiaries’ claim numbers.

The alert also indicated that the supplier marketing program stated that the
beneficiary should be treated three times per day with the contents of the kit. This
resulted in a supplier billing Medicare $1,800 per month per beneficiary in one carrier
jurisdiction.

METHODODGY

To determine the trends in incontinence allowances, we arrayed payment and
utilization data for each incontinence supply. We also analyzed the utilization data for
possible questionable billing practices.

We first reviewed each DMERC’S coding and coverage guidelines and interviewed
DMERC officials to identify 43 codes used to reimburse incontinence supplies. These
did not include any “local” codes used by individual carriers. Supplies were segregated
into three groups: catheters, external urinary collection devices, and accessories. The
HCFA and DMERC officials provided the designation for each billing code.

We selected all services for 43 codes for a 1 percent sample of beneficiaries from the
Part B Medicare Annual Data Procedure File for calendar year 1990 and the National
Claims History 100% Physician/Supplier Data for calendar years 1991 through 1993.
From the 1993 sample of 2,927 beneficiaries, we obtained an additional file for
231 beneficiaries who accounted for 51 percent of all incontinence allowances,
beginning with the beneficiary with the highest amount billed. This file contained all
Part B services, in addition to incontinence.

From the sample of incontinence services, we calculated Part B Medicare allowed
payments, supply frequency, and number of beneficiaries. Allowed payments include
both the 80 percent Medicare payment and the 20 percent coinsurance fee paid by
beneficiaries. We arrayed the data by billing code, carrier, and major suppliers. We
then analyzed the statistical information to determine trends in incontinence


                                           2
expenditures. Welimited our analysis for frequency utilization to the period 1991
through 1993 because frequency reported in 1990 was not comparable to later years.

According to DMERC coding policies, 11 of the 23 billing codes that cover accessories
are also used to reimburse ostomy care. We did not include any semices for the 11
codes associated with beneficiaries who received only ostomy care. We also did not
include services billed under code A4323, “sterile saline irrigation solution,” when it
was not biIled in conjunction with other incontinence supplies. According to DMERC
officials, code A4323 may be used in conjunction with other non-incontinence supplies
such as enteral nutrition products.

To determine the nature and extent of questionable billing practices, we interviewed
DMERC officials including medical directors and fraud control unit personnel. We
reviewed coverage and utilization standards for 1) the three Medicare carriers that
were among the highest in allowances in 1993, 2) the current DMERCS, and 3) the
proposed DMERC national urological standards.

We projected our findings by multiplying sample results by 100. Confidence intervals
for our findings are presented in Appendix A.

We applied current and proposed DMERC guidelines to the selvices billed for the 43
incontinence supplies in 1993. We focused on two facets of billing: 1) accessories that
can only be billed with prosthetic dew”ces, such as catheters and external urinary
collection devices; and 2) frequency limitations on prosthetic devices. For each
practice, we reported Medicare allowances and frequencies above the tolerance
guidelines by type of supply, carrier, supplier, and number of beneficiaries receiving
supplies.

This report is one of a series of reports concerning Medicare payments for
incontinence supplies. Markeh”ng of Incontinence Supplies (OEI-03-94-00770), describes
supplier and nursing home practices that can lead to questionable payments and
examines issues concerning Medicare beneficiaries’ use of incontinence supplies. The
third report, Medicaid Payments for Incontinence Supplies (OEI-03-94-00771), will
examine how the Medicaid program processes claims for incontinence supplies in 14
States.

This inspection was conducted in accordance with the Qualify Standards for Iizspections
issued by the President’s Council on Integrity and Efficiency.




                                           3

                                 FINDINGS


MEDICARE ALLOWANCES FOR INCONTINENT CE SUPPLIES MORE THAN
DOUBLED IN THREE YEARS DESPITE A DROP IN THE NUMBER OF
BENEFICL4RIESUSING THESE SUPPLIES.

Medicare Part B allowances for incontinence supplies rose from $88 million in 1990 to
$230 million in 1993, an increase of $142 million. The most significant portion of that
increase came in 1993 when allowances increased $111 million, almost doubling horn
the previous year. Over the same time period, the number of beneficiaries receiving
incontinence supplies has actually decreased. In 1990, 312,200 beneficiaries received
incontinence supplies. In 1993, this figure fell to 292,700. Allowances per beneficiary
more than doubled from $282 in 1990 to $786 in 1993.

Between 1991 and 1993, the number of incontinence supplies paid for by Medicare
more than tripled. In 1991, Medicare Part B reimbursed suppliers for 19 million
incontinence supplies. In 1992, reimbursed supplies increased to 25 million. In 1993,
supplies more than doubled from the previous year to 60 million. The table below
provides a summary of incontinence activity between 1990 and 1993.

Table 1. Incontinence Activity   1990-1993




 Allowances              $88 million    $108 million    $119 million     $230 million
 No. of Beneficiaries      312,200           334,300       281,400         292,700
 Allowances per             $282              $322          $423            $786
 Beneficiary
 No. of Supplies             N/A        18.8 million     24.7 million    59.5 million

FOUR TYPES OF INCONTINENCESUPPLIES ACCOUNT FOR ALMOST ALL
THE INCREASE IN MEDICARE ALLOWANCES.

Between 1990 and 1993, Medicare allowances for irrigation syringes (billing code
A4322), sterile saline irrigation solutions (A4323), lubricants (A4402), and female
external urinary collection pouches (A4328) increased $129 million. This accounts for
91 percent of the $142 million increase for all supplies. The table on the next page
shows increases in allowances for the four supplies according to their billing code.




                                             4

Table 2 Increase in Four Supply Codes




Although the total number of incontinence beneficiaries decreased 6 percent between
1990 and 1993, the number of beneficiaries receiving these four supplies showed
significant increases. The table below displays the number of beneficiaries served for
each of the four supply codes.

Table 3. Number of Beneficiaries Served for Four Supply ClxJes




Allowancesfor accesroriaand colktion devicesrose si@@icant&between1990 and
1993 whik allowaruxxfor cathetm ilwreaxd only rnoikrtly.

Allowances for accessories rose from $61 million to $183 million, an increase of
200 percent. In 1990, only $198,900 was spent on all external urinary collection
devices. By 1993, expenditures skyrocketed to $16 million, an 8,051 percent increase.
In contrast, allowances for catheters grew 15 percent from $27 million to $31 million
between 1990 and 1993, an annual increase of 5 percent.

The nature of supply allowances has also changed. In 1990, indwelling catheters
(A4338), bedside drainage bags (A4357), and irrigation trays (A4320) accounted for
almost half of all allowances. By 1993, 53 percent of all allowances were made for
irrigation syringes, sterile saline solution, and lubricants.

The rise in supply utilization mirrors the change in allowances. In 1991, Medicare
paid for 19 million incontinent supplies. By 1993, this figure had tripled to 60 million.
Suppliers were reimbursed for 63,200 external urinary collection devices in 1991 and


                                            5
2 million in 1993, anincrease of3,410 percent. Female pouches account forahnost
95 percent of the external urinary collection devices supplied in 1993. The number of
catheters rose from 6 million in 1991 to 7 million in 1993. Intermittent urinary
catheters increased 1.5 million but was offset by a decrease in the number of insertion
trays, external catheters, and indwelling catheters.

Allbwamxr are concentratedin one catir and a smallnumberof supplkis and
benejichti.

One carrier and a small number of suppliers and beneficiaries account for a significant
portion of allowances. Florida Blue Shield accounted for 55 percent of all
incontinence allowances in 1993, while six carriers made 50 percent of the allowances
in 1990. Of the 1 percent sample claims reviewed in 1993, less than 1 percent of all
suppliers received total annual payments of $50,000 or more, accounting for over one-
quarter of all payments. In contrast, no supplier received total payments that
exceeded $50,000 in 1990. While 60 percent of the suppliers received total payments
of $100 or less in 1990, the number dropped to 40 percent in 1993. The following
table details incontinence payments by supplier between 1990 and 1993.

Table 4. Incontinence Payments Per Supplier

                                                                                   , ‘“““:,”,;:,””””’”,”:::::,::,
            “Tdtat                           ‘ “199p,                     “: ‘“”                           ‘ii$s”::’:’~’’’; ”::i:ii!::::.
j : ~:p.QJ~::,.:.,. ,. :,, ,:,: ,,”;::: , , ., ,:                  ,,; ..,..”.:: :..:.:.,2                      :,:;:::::’:;:;:;,;::’::;:.
                                                                                      :,.:. ..,:;;::” ‘,:”:::,::..:.,
“’”, :, ,;~ow$q:.:,::: ;:::, ‘“”,::!l&;Q$:,;”      :::::;.:.,;
                                              ‘“’,;::.       ‘:’:g..$$::.;:;       ,;; .:.’..::,:;g:j::,::$:.$;::;;:’;~~uf:::::;j;
                                                                             :::,,$:
         ,,. ‘:.:.  ..:;.:’?, :!;”’’;:is~p~q$rs:::.“:”::Nl~*a~$,i*;;.$: :“::,,:$qpp]i$f#$<: :;i::;~b$~$~$;;:;$
              ?,,::..:
           ,.                                      ... . ....... .
  Under $100                           60.0                        3.3                        39.3                          0.8
     $100-$199                          9.0                        2.5                         10.9                         1.0
     $200-$499                         12.9                        8.2                         16.9                         3.5
     $500-$999                          7.4                       10.2                         12.2                        5.4
  $1,000-$4,999                         8.9                       37.0                         15.4                        19.1
  $5,000-$9,999                         1.1                       14.5                         2.7                         11.7
 $10,000-$49,000                        0.8                       24.4                         2.2                        30.9
 $50,000+                               0.0                        0.0                         0.5                        27.5

In 1993, 10.3 percent of beneficiaries received services over $2,000 and accounted for
57 percent of allowances. In 1990, payments were less concentrated in such large
payments. only 21 percent of allowances were made to beneficiaries who received
$2,000 or more in semices. In 1990, 53 percent of beneficiaries received $100 or less
in incontinence supplies, while 33 percent received comparable payments in 1993.
The table on the next page details allowances by beneficiary.




                                                                    6

     Table 5. Incontinence Allowances Per Beneficiary




      Under $100        I      52.5      I       5.7       I      32.6       I       1.7          II
        $100-$199       I      12.2      I       6.2       I       12.7      I       2.3          II
        $200-$499              18.9             21.8               19.4              8.2
                                                                                                  I
        $500-$999              10.5             26.4               15.0              13.3
                                                                                                  I
      $1,000-$1,999            4.0              18.7               9.9               17.8
                                                                                                  I
      $2,000-$2,999            1.2              10.9               3.9               12.1
                                                                                                  1
      $3,000-$3,999            0.5               5.7               1.9               8.5
                                                                                                  I
      $4,000+                  0.2               4.6               4.5              36.0

     QUESTIONABLE BILLING PRACTICES MAY ACCOUNT FOR ALMOST
     ONE-HALF OF ALL INCONTINEN CE ALLOWANCES IN 1993

     Medicare allowed $107 million in 1993 for supplies related to questionable billing
     practices. This represents 47 percent of the $230 million in allowances. About
     $88 million was paid for incontinence accessories for beneficiaries who did not receive
     a prosthetic device. Additional payments of $19 million were made for certain
     prosthetic devices that appear to have excessive utilization. These billing practices are
     concentrated in one carrier, few suppliers, and few beneficiaries.

     Accessoti   bilkd wMou.tprostheticdevicesh not meet Medicareguidelines.

     In order for Medicare to pay for incontinence accessories the beneficiary must have a
     prosthetic device such as a catheter or a urinary collection device. However,
     $88 million was allowed for accessories that were not billed with a prosthetic device.
     As shown in the table on the next page, virtually all allowances that did not meet
     Medicare guidelines were for just three supplies. The supplies were sterile saline
     solutions, irrigation syringes, and lubricants. In total, these three supplies account for
     94 percent of the $88 million in questionable billings. As a further check, we reviewed
     Part B services provided to 96 beneficiaries with large Medicare allowances and found
     that very few beneficiaries received other durable medical equipment for which these
     supplies would have been appropriate.




                                                 7



—.
Table 6. Accessories Billed Without Catheter or Collection Device




 Saline Solution                                 6,467,500             $29 million
 Syringe                                      10,268,200               $31 million
 Lubricant                                    11,312,800               $22 million




Utii?zation
          for certaihprostheticdevicesap~am ercemive.

As much as $19 million in allowances may have been overpaid if the proposed
DMERC utilization standards had applied to certain prosthetic devices in 1993. Over
$11 million in 1993 was allowed for female external urinary collection pouches
(A4328) that exceed the proposed DMERC guidelines of one per day. We are aware
that at least one supplier was paid for 186 per month, or 6 per day. Another $8
million was allowed for beneficiaries who received more than one indwelling catheter
per month. The proposed DMERC policy calls for no more than one indwelling
catheter per month for routine maintenance. Additional catheter changes are covered
only if documentation substantiates medical necessity.

FloridaBik ShieLiaccountedfor most of the quationablealihwanctx

Florida Blue Shield accounted for $78 million (89 percent) of $88 million in Medicare
allowances for accessories not billed in conjunction with a catheter or external urinary
collection device. Over 90 percent of the allowances were for just three supplies:
irrigation syringes, sterile saline solutions, and lubricants. Almost 70 percent of the
allowances for female external urinary collection pouches was also through Florida
Blue Shield.

The allowances for the indwelling catheters that exceeded one per month involved
numerous carriers. Four carriers accounted for over 40 percent of allowances. The
carriers were Pennsylvania Blue Shield (15 percent), Illinois Blue Shield (10 percent),
Blue Shield of Greater New York (9 percent), and Nationwide of Ohio (7 percent).
The remaining 60 percent was paid by 44 other carriers.

Allowamxzrwereconcentmtedinfew suppliem

Approximately 5 percent of suppliers (19 in the sample of 471) accounted for over
three-quarters of the accessories billed without catheters or external urinary collection
devices. All but one of these suppliers were paid by Florida Blue Shield.




                                            8

Ten suppliers in our sample accounted for all payments for female external urinary
collection pouches. All but three of the suppliers were paid by Florida Blue Shield.
only 3 of the 11 codes used to reimburse indwelling catheters showed any
concentration of allowances for suppliers. For each of these codes, A4311, A4313,
and A43 15, one supplier received at least two-thirds of all allowances in our sample.
The remaining allowances was shared by several suppliers.

F&v beneficiariesreceivemost of the allowances.

A total of 821 beneficiaries (28 percent from the sample of 2,927) received accessories
without a prosthetic device. At least 360 of these beneficiaries were billed for
irrigation syringes, sterile saline solutions, and lubricants.

All the excessive allowances for female collection pouches were made to 3 percent of
beneficiaries sampled. For each of the indwelling catheter codes except A4338, all
excessive payments were made to 1 percent to 6 percent of the beneficiaries sampled.
However, almost one-third of the beneficiaries in our sample received more than one
catheter per month of those billed under A4338.

A PROPOSED CHANGE IN DMERC POIJCIES                   WILL PROBABLY ADDRESS
QUESTIONABLE BILLING PRACTICES.

Inconsistencies and the lack of clear utilization guidelines and controls among carriers
contributed to the large number of questionable incontinence claims paid by Medicare
in 1993. Current DMERC policies, while more consistent, still do not contain clear
coverage definitions. A proposed draft DMERC policy further clarifies covered
services and provides a mechanism to link incontinence accessory supplies to
prosthetic devices.

l%wious canierpolicia did not containclearguidanceon coverageand approptite
util&atim.

We reviewed policies of three carriers which were among the highest in incontinence
allowances for 1993 and found that their guidelines differed for the same types of
supplies. For example, for one indwelling catheter code, one carrier allowed two per
month while another allowed eight. For one supply code, one carrier allowed 4 per
day, the second allowed 1 per week, and the third allowed 30 per month. For the
female urinary collection device (A4328), an item with a large number of questionable
allowances, two carriers had no utilization guidelines and the third allowed four per
month.

The carrier with the highest questionable allowances for 1993 had no frequency or
utilization controls for any incontinence supplies except for two intermittent catheter
codes. Neither this carrier nor the two other carriers had controls to prevent
allowances for incontinence supplies when billed without a prosthetic device.



                                            9

Cumntpolicks, whik strongm,do not go far enough

Current DMERC policies categorize the incontinence supplies benefit under coverage
of prosthetic devices. For a prosthetic device to be covered, “the physician must
certify that the condition resulting in the need for the device is of long and indefinite
duration (at least 3 months).”

All four DMERCS have utilization controls for indwelling catheters, limiting the
number of catheters to two per month for routine maintenance. Three DMERCS
have strengthened coverage policies for lubricant, stating that it can no longer be
reimbursed as a separate supply since it is included in catheter insertion trays.

The DMERCS have also adopted a uniform certificate of medical necessity form. This
certificate must be filled out, signed, and dated by the ordering physician and kept on
file by the supplier.

Not all DMERCS have computer edits or controls in place to ensure that supplier
claims conform with DMERC policies. While all four DMERCS have a utilization
standard for indwelling catheters, only two have computer edits. Only one DMERC
has an on-line edit to check claims for particular supplies to ensure that the certificate
of medical necessity adequately supports the use of these supplies.

Even though the DMERC manuals limit payment for supplies to those that are for the
effective use of a prosthetic device, DMERCS do not have controls to prevent
payment for incontinence supplies when the beneficiary has neither a catheter nor an
external urinary collection device. Without these controls, Medicare will continue to
pay for incontinence supplies that do not meet Medicare coverage guidelines.

The drafiDMERCpolicy providixunfom coverageand utilizationstandar&thatwill
lead to improvedprocessingof iizcontkencesupplycZaims.

The proposed DMERC national guidelines on urological supplies will prevent
Medicare payment for supplies not used with covered prosthetic devices. As the draft
policy clearly states, “urological supplies that are not used with catheters or external
urinary collection devices will be denied as noncovered.” It provides even more
explanation in the case of sterile saline solution and irrigation syringes by maintaining
that “irrigation supplies that are used for care of the skin and/or perineum of
incontinent patients are not covered.”

The new policy requires suppliers to add a modifier to urological supply codes when
the supplies are used with a catheter or external urinary collection device. The new
ZX modifier, as it is known, would be added to the end of a code submitted on
claims for catheters, external urinary collection devices, or supplies required for the
effective use of one of these items. The modifier indicates that “specified coverage
criteria in the medical policy have been met and documentation is available in the
supplier’s records.”


                                            10
If this policy is implemented and claims processing controls are created to ensure that
required modifiers are used, large numbers of questionable allowances such as those
found in 1993 can be avoided. If the policy had been implemented in 1993, Medicare
and beneficiaries could have saved as much $88 million in questionable payments.

The proposed policy provides more explicit definitions of covered items. It clearly
defines female urinary collection devices, insertion trays, and anchoring devices. It
also lists supplies sometimes paid for previously that will no longer be covered since
they are not required for the effective use of incontinence prosthetic devices (e.g. skin
barriers and appliance cleaners).

The policy also contains utilization standards for many incontinence supplies. For
instance, no more than one indwelling catheter per month will be covered for routine
catheter maintenance. The new policy allows only one male external catheter and one
female pouch collection device per day. These new utilization standards coupled with
computer edits or controls should significantly decrease the number of excessive
incontinence supplies billed to Medicare.




                                           11

                              NEXT              STEPS


InconthwnceSupplkr

In response to the information presented in this report and a companion report, the
Office of Inspector General (OIG) plans to:

       o	     initiate an audit review to examine in more detail payments made for
              incontinence supplies in order to determine if any overpayments are
              involved in this area; and

       o	     launch a national investigation in this area, examining potentially
              fraudulent practices by specific suppliers of incontinence supplies.

We also support ongoing activity in HCFA and the DMERCS to develop more specific
coverage guidelines and educate providers and suppliers about proper billing for such
supplies. We hope the information contained in this report is helpful as they complete
this activity.

OIG Studiesof OtherNumi.ngHome Suppik

The OIG will continue studies     and audits related to its major initiative examining
services and supplies provided    to Medicare beneficiaries residing in nursing facilities.
As this report and other OIG      work has reflected, the fragmentation of billing for
services and supplies provided    to residents of nursing homes has created a host of
improper incentives for billers   to the Medicare program.

“Bundling”of Semkes

We continue to support HCFA’S efforts to pursue a systematic solution to these kinds
of problems through a requirement for “bundling” of services in nursing home settings.
Under such an approach, the nursing home would be responsible for providing
commonly needed services to residents of that facility, rather than allowing for
separate billing by suppliers. Such a solution would eliminate the incentives suppliers
now have to aggressively seek out patients in nursing homes and market their products
inappropriately in those settings. It would also ensure that nursing homes take on
appropriate responsibilities for services and supplies delivered to residents in their
facilities.




                                              12

                                                APPENDIX                       A


                                          CONFIDENCE INTERVALS


We reported our findings by multiplying 100 by the point estimates in our samples.

The point estimates represent the total allowance, number of supplies, or number of

beneficiaries. The confidence intervals present the range of possible findings at the 95

percent level. The 95 percent confidence level represents approximately two standard

deviations from the sample mean. The two standard deviations, or semi-width, is

determined by multiplying 1.96 by the standard error of the sample mean. The

variance from the point estimate is determined by multiplying the semi-width of by the

sample size. The confidence internal is the plus or minus range of the variance from

the point estimate.


The 95 percent confidence intervals are presented in the following tables.

Table 1. Inamtinencx   Activity     1990-1993   (p.4)




Table 2 ItIemase in Four   su@iea      Bdween   1990 and 1993 (@)




  Irrigation Syringe                    1900                 +/-    $3s1,600          $679,700
  A4322
                                        1993                +/- $3,308,200          $43,271,W

  Saline Solution                       1990                +/- $1,365,700          $7,035,500
  A4323
                                        1993                +/- $4,sss,600          $47,020,200

  Female Pouch                          1990                 +/-     $25,160           $18,500
  A4328
                                        1993                +/- $2,643,800          $15,295,~

  Lubricant                             1990                 +/-    $333,100          $494,100
  A4402
                                        1993                +1- !S2.766.300         $31.958.300




                                                                   A-1

Table 3. Quawona
              -  Me BifIing Phctimt(p.7)




IIFemale Pouch

II Indwelling Catheter
                                                                  +/- $3,070,135
                                                                                          1
                                                                                               $11,117WJ

                                                                                                $S,156,900
                                                                                                             I
                                                      I           +/- $1,644,595          I                  II



l\ AcceaaorieauI/o   Prosthetic   Device              I           +/-$10,7S4,752          I    $s7,570,500   II




Table 4. saline solu~       _          ad   IAi&ant       Billed Wkbout Pmatktx - Dmice (p%)




  Saline Solution               No. of Supplies                    +/-   1,2%,309                6,467,500
  A4323
                                Aflowana                           +/- $.4,223,731             $2S,70S,=2

  Irrigation Syringe            No. of Supplies                    +/-   1,23s,503              10,26s,200
  A4322
                                Allowance                          +/- $3,6ss,280              $30,s45,900

  Lubricant                     No. of Supplies                    +/-   1,562456               llwv300
  A4402
                                Allowance                          +/- $3,027,SSS              $21,914,501



Tabfe 5. Florida Blue Shield AUowmce         of &xsao&s        Wltbout
                                                                    l%aktic -           Q@)




                                                                     A-2

 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




QUESTIONABLE MEDICARE PAYMENTS

   FOR INCONTINENCE SUPPLIES





                       sERVICES
                   #              “&@
              4+
                                    ‘7
          +

         SW
                                         JUNE  GIBBS BROWN
         ~                               Inspector  General

         s

         %

          %$--         @
                                                DECEMBER 1994
             >     4+daa
                                                 0EI-03-94-O0772
                      OFFICE OF INSPE~OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HI-IS)
programs as well as the health and welfare of beneficiaries served by those programs. ‘l?hk
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections cxmducted by three OIG operating components: the Office of Audit *MUX, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also info~
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECITONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office, under the direction of Joy Quill, Regional Inspector General and Robert A.
Vito, Deputy Regional Inspector General. Project staff included:

PHILADELPHIA REGION                                 HEADQUARTERS

Robert A Katz, Project Leader                       Thomas A. Noplock, Program Specialist
Robert A. Baiocco, Progam Analyst                   Brian P. Ritchie, Technical Support Staff
Linda M. Ragone, Program Analyst                    Barbara Tedesco, Technical Suppoti Stafl
Cynthia Hansford, Administrative Staff

To obtain a copy of this repo~ please call the Philadelphia Regional Office at (800) 531-9562
              EXECUTIVE                           SUMMARY


PURPOSE

This report examines trends in allowances and questionable billing practices for
incontinence supplies under Medicare Part B between 1990 and 1993.

BACKGROUND

Incontinence is the inability of the body to control urinary and bowel functions.
Under the Medicare Part B program, the Health Care Financing Administration
(HCFA) will reimburse suppliers that provide incontinence supplies to aid individuals
whose incontinence condition “...is of long and indefinite duration.” Such
reimbursement is provided only as part of Medicare’s coverage for prosthetic devices
such as catheters and external urinary collection devices. The HCFA will also
reimburse for accessories, such as irrigation syringes and sterile saline solution, that aid
in the effective and therapeutic use of these devices. Currently, claims are processed
by four Durable Medical Equipment Regional Carriers (DMERCS).

We selected claims for a 1 percent sample of beneficiaries who received one of 43
types of supplies for incontinence care. We arrayed the data by type of supplies,
carrier, and major suppliers. We then analyzed the statistical information to develop
trends. We also applied current and proposed HCFA guidelines for these
incontinence supplies in 1993. We focused on two facets of billing: accessories that
can only be billed with prosthetic devices; and frequency limitations on prosthetic
devices.

FINDINGS

Medicareallowancesfor hcontiiumce suppliesmore thandoubledin threeyears despitea
drop in the numberof bmejiciariesusingthesesupplies.

Incontinence allowances rose from $88 million in 1990 to $230 million in 1993, an
increase of $142 million. During the same period, the number of beneficiaries
receiving incontinence supplies fell from 312,200 to 292,700. Allowances per
beneficiary increased from $282 to $786.

Four typesof incontinencewpplies accountfor abnost ail the increasebaMdicare
allowances.

Between 1990 and 1993, Medicare allowances for irrigation syringes, sterile saline
irrigation solution, lubricant, and female external urinary collection pouches increased
$129 million. This accounts for 91 percent of the $142 million total increase.




                                              1
                                                                  e albwances in
Questionablebillingpmcticesmay accountfor almosthalf of ikcontihenc
1993.

Medicare allowed $107 million in 1993 for supplies whose billing is questionable.
Almost $88 million was paid for incontinence accessories that were not billedin
conjunction with a prosthetic device. An additional $19 million was paid for
beneficiaries whose utilization of certain prosthetic devices appears excessive. The
allowances were concentrated in one carrier and a small number of suppliers and
beneficiaries.

A proposed changein HCFA policy willprobablyaddressquationable bilbgpmctictx

Inconsistencies and lack of clear utilization guidelines in carrier policies contributed to
the large number of questionable incontinence claims paid by Medicare in 1993. A
proposed draft policy (to be issued by the four Durable Medical Equipment Regional
Carriers) will clari@ covered services and provide a mechanism to link incontinence
accesso~ supplies to prosthetic devices.

NEXT STEPS

Iiontinence Supplies

In response to the information presented in this report and a companion report, the
Office of Inspector General (OIG) plans to:

       o	     initiate an audit review to examine in more detail payments made for
              incontinence supplies in order to determine if any overpayments are
              involved in this area; and

       o	     launch a national investigation in this area, examining potentially
              fraudulent practices by specific suppliers of incontinence supplies.

We also support ongoing activity in HCFA and the DMERCS to develop more specific
coverage guidelines and educate providers and suppliers about proper billing for such
supplies. We hope the information contained in this report is helpful as they complete
this activity.

OIG Studiesof OtherNiwsikgHome Supplies

The OIG will continue studies     and audits related to its major initiative examining
services and supplies provided    to Medicare beneficiaries residing in nursing facilities.
As this report and other OIG      work has reflected, the fragmentation of billing for
semices and supplies provided     to residents of nursing homes has created a host of
improper incentives for billers   to the Medicare program.




                                               11
“Bundli&’ of Sewices

We continue to support HCFA’S efforts to pursue a systematic solution to these kinds
of problems through a requirement for %undling” of services in nursing home settings.
Under such an approach, the nursing home would be responsible for providing
commonly needed services to residents of that facility, rather than allowing for
separate billing by suppliers. Such a solution would eliminate the incentives suppliers
now have to aggressively seek out patients in nursing homes and market their products
inappropriately in those settings. It would also ensure that nursing homes take on
appropriate responsibilities for services and supplies delivered to residents in their
facilities.




                                           ...
                                          111
                           TABLE                     OF CONTENTS


                                                                                                                        PAGE


EXECUTIVE suMMARY


INTRODUCTION                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


    �    Increased spending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


    �    Four specific supplies           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


    �    Questionable       billing practices         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


    �    DraftDMERCpolicy                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9



NEXT STEPS              . .. O. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12



APPENDIX


A       Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

                          INTRODUCTION


PURPOSE

This report examines trends in allowances and questionable billing practices for
incontinence supplies under Medicare Part B between 1990 and 1993.

BACKGROUND

MedicareCoverageof Iiacontinence
                               Supplies

Incontinence is the inability of the body to control urinary and bowel functions.
Reimbursement for incontinence supplies is included as part of Medicare’s coverage
for prosthetic devices. According to Medicare Carriers Manual section 2130,
“prosthetic devices (other than dental) which replace all or part of an internal body
organ (including contiguous tissue), or replace all or part of the function of a
permanently inoperative or malfunctioning internal body organ are covered when
furnished on a physician’s order.”

Under the Medicare Part B program, the Health Care Financing Administration
(HCFA) will reimburse suppliers that provide incontinence supplies to aid individuals
whose incontinence condition “...is of long and indefinite duration.” Certain items,
such as absorbent undergarments or diapers, are specifically excluded from coverage.

Incontinence supplies include prosthetic devices such as catheters and external urinary
collection devices such as pouches or cups. Catheters are flexible, tubular instruments
used to control urinary flow. The HCFA will also reimburse accessories that aid in
the effective and therapeutic use of these devices. These accessories include items
such as drainage bags, irrigation syringes, sterile saline solutions, and lubricants.
However, accessories are not covered in the absence of a prosthetic device.           .

Canierl%oc&g      of IncontzkenceSupply(3iJims

In June 1992, HCFA issued a final rule designating four Durable Medical Equipment
regional carriers (DMERCS) to process all claims for durable medical equipment,
prosthetics, orthotics, and supplies. Effective October 1, 1993, the DMERCS replaced
more than 50 area carriers which had previously processed DME claims. The
geographical areas formerly serviced by the carriers were phased in under the
DMERCS on a staggered basis. Each DMERC issued its own coverage and
reimbursement policies that implement Medicare guidelines.

However, for urological supplies, the DMERCS issued a draft of a single national
policy in October 1994. In addition to redefining and clarifying some of the definitions
used in claims for incontinence and urological supplies, the policy establishes
documentation requirements for higher than usual quantities of supplies. The non-
coverage of diapers and similar absorptive pads is emphasized. The policy also
reinforces the condition of “permanence” for coverage purposes and stresses that
accessories not used in conjunction with covered catheters or external urinary
collection devices are not covered.

M&care FraudAkrt

One DMERC issued a Medicare Fraud Alert in June 1994 describing a supplier
scheme involving the marketing of incontinence kits to nursing homes. In this case,
the supplier advised nursing home officials that Medicare was paying for the kits under
a “pilot program.” According to the alert, supplier representatives provide kits
containing accessories such as syringes, saline solution, and lubricants, to the nursing
home in exchange for beneficiary names and Medicare health insurance claim
numbers. The marketing representative then orders bulk quantities of supplies billed
under the beneficiaries’ claim numbers.

The alert also indicated that the supplier marketing program stated that the
beneficiary should be treated three times per day with the contents of the kit. This
resulted in a supplier billing Medicare $1,800 per month per beneficiary in one carrier
jurisdiction.

METHODOIK)GY

To determine the trends in incontinence allowances, we arrayed payment and
utilization data for each incontinence supply. We also analyzed the utilization data for
possible questionable billing practices.

We first reviewed each DMERC’S coding and coverage guidelines and interviewed
DMERC officials to identify 43 codes used to reimburse incontinence supplies. These
did not include any “local” codes used by individual carriers. Supplies were segregated
into three groups: catheters, external urinary collection devices, and accessories. The
HCFA and DMERC officials provided the designation for each billing code.

We selected all services for 43 codes for a 1 percent sample of beneficiaries from the
Part B Medicare Annual Data Procedure File for calendar year 1990 and the National
Claims History 100% Physician/Supplier Data for calendar years 1991 through 1993.
From the 1993 sample of 2,927 beneficiaries, we obtained an additional file for
231 beneficiaries who accounted for 51 percent of all incontinence allowances,
beginning with the beneficiary with the highest amount billed. This file contained all
Part B services, in addition to incontinence.

From the sample of incontinence services, we calculated Part B Medicare allowed
payments, supply frequency, and number of beneficiaries. Allowed payments include
both the 80 percent Medicare payment and the 20 percent coinsurance fee paid by
beneficiaries. We arrayed the data by billing code, carrier, and major suppliers. We
then analyzed the statistical information to determine trends in incontinence


                                           L
expenditures. Welimited our analysis for frequency utilization to the period 1991
through 1993 because frequency reported in 1990 was not comparable to later years.

According to DMERC coding policies, 11 of the 23 billing codes that cover accessories
are also used to reimburse ostomy care. We did not include any services for the 11
codes associated with beneficiaries who received only ostomy care. We also did not
include services billed under code A4323, “sterile saline irrigation solution,” when it
was not billed in conjunction with other incontinence supplies. According to DMERC
officials, code A4323 may be used in conjunction with other non-incontinence supplies
such as enteral nutrition products.

To determine the nature and extent of questionable billing practices, we interviewed
DMERC officials including medical directors and fraud control unit personnel. We
reviewed coverage and utilization standards for 1) the three Medicare carriers that
were among the highest in allowances in 1993, 2) the current DMERCS, and 3) the
proposed DMERC national urological standards.

We projected our findings by multiplying sample results by 100. Confidence intervals
for our findings are presented in Appendix A.

We applied current and proposed DMERC guidelines to the services billed for the 43
incontinence supplies in 1993. We focused on two facets of billing: 1) accessories that
can only be billed with prosthetic devices, such as catheters and external urinary
collection devices; and 2) frequency limitations on prosthetic devices. For each
practice, we reported Medicare allowances and frequencies above the tolerance
guidelines by type of supply, carrier, supplier, and number of beneficiaries receiving
supplies.

This report is one of a series of reports concerning Medicare payments for
incontinence supplies. Marketing of Incontinence Supplies (OEI-03-94-00770), describes
supplier and nursing home practices that can lead to questionable payments and
examines issues concerning Medicare beneficiaries’ use of incontinence supplies. The
third report, Medicaid Payments for Incontinence Supplies (OEI-03-94-00771), will
examine how the Medicaid program processes claims for incontinence supplies in 14
States.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           3

                                 FINDINGS


MEDICARE ALLOWANCES FOR INCONTINENT CE SUPPLIES MORE THAN
DOUBLED IN THREE YEARS DESPITE A DROP IN THE NUMBER OF
BENEFICIARIES USING THESE SUPPLIES.

Medicare Part B allowances for incontinence supplies rose from $88 million in 1990 to
$230 million in 1993, an increase of $142 million.- The most significant portion of that
increase came in 1993 when allowances increased $111 million, almost doubling from
the previous year. Over the same time period, the number of beneficiaries receiving
incontinence supplies has actually decreased. In 1990, 312,200 beneficiaries received
incontinence supplies. In 1993, this figure fell to 292,700. Allowances per beneficiary
more than doubled from $282 in 1990 to $786 in 1993.

Between 1991 and 1993, the number of incontinence supplies paid for by Medicare
more than tripled. In 1991, Medicare Part B reimbursed suppliers for 19 million
incontinence supplies. In 1992, reimbursed supplies increased to 25 million. In 1993,
supplies more than doubled from the previous year to 60 million. The table below
provides a summary of incontinence activity between 1990 and 1993.

Table 1. Incontinence Activity   1990-1993




 No. of Beneficiaries       312,200          334,300           281,400            292,700
                        I             I                  r                  r

 Allowances per              $282             $322              $423               $786
 Beneficiary
 No. of Supplies             N/A          18.8 million       24.7 million       59.5 million

FOUR TYPES OF INCONTINENCE SUPPLIES ACCOUNT FOR ALMOST ALL
THE INCREASE IN MEDICARE ALLOWANCES.

Between 1990 and 1993, Medicare allowances for irrigation syringes (billing code
A4322), sterile saline irrigation solutions (A4323), lubricants (A4402), and female
external urinary collection pouches (A4328) increased $129 million. This accounts for
91 percent of the $142 million increase for all supplies. The table on the next page
shows increases in allowances for the four supplies according to their billing code.




                                             4

Table 2 Increase in Four Supply Codes

T’:;;:

         ,,:,Pp.&,:    “$990.?~lo@l$i       ::,::; ji!193 Mloianci’:’:i:    j~@jas*;~~~~#! ;’:;~jig;:;“
  Syringe               $0.7 million             $43.3 million               $42.6 million
  Saline Solution       $7.0 million             $47.0 million               $40.0 million
  Female Pouch          $0.02 million            $15.3 million                $15.3 million
  Lubricant             $0.5 million             $32.0 million                $31.5 million



Although the total number of incontinence beneficiaries decreased 6 percent between
1990 and 1993, the number of beneficiaries receiving these four supplies showed
significant increases. The table below displays the number of beneficiaries served for
each of the four supply codes.

Table 3. Number of Beneficiaries Served for Four Supply Codes




  Syringe                               I      7,400         I     62,700        I   747 percent
   Saline Solution                      I     45.300         I     95.900        I   112 Percent
   Female Pouch                         I        600         I      9,400        I 1,467 percent
   Lubricant                                   5,700               59,900            951 percent

Allbwaruzrfor accessorialand collectiondevicesrose si’ijicantly between1990 and
1993 whik alibwancesfor cathetenikreased on$ modestly.

Allowances for accessories rose from $61 million to $183 million, an increase of
200 percent. In 1990, only $198,900 was spent on all external urinary collection
devices. By 1993, expenditures skyrocketed to $16 million, an 8,051 percent increase.
In contrast, allowances for catheters grew 15 percent from $27 million to $31 million
between 1990 and 1993, an annual increase of 5 percent.

The nature of supply allowances has also changed. In 1990, indwelling catheters
(A4338), bedside drainage bags (A4357), and irrigation trays (A4320) accounted for
almost half of all allowances. By 1993, 53 percent of all allowances were made for
irrigation syringes, sterile saline solution, and lubricants.

The rise in supply utilization mirrors the change in allowances. In 1991, Medicare
paid for 19 million incontinent supplies. By 1993, this figure had tripled to 60 million.
Suppliers were reimbursed for 63,200 external urinary collection devices in 1991 and
2 million in 1993, anincrease of3,410 percent. Female pouches account for almost
95 percent of the external urinary collection devices supplied in 1993. The number of
catheters rose from 6 million in 1991 to 7 million in 1993. Intermittent urinary
catheters increased 1.5 million but was offset by a decrease in the number of insertion
trays, external catheters, and indwelling catheters.

Allowanmnare concentratedm one cam>rand a smullnumberof supplierxand
bemfkiark

one carrier and a small number of suppliers and beneficiaries account for a significant
portion of allowances. Florida Blue Shield accounted for 55 percent of all
incontinence allowances in 1993, while six carriers made 50 percent of the allowances
in 1990. Of the 1 percent sample claims reviewed in 1993, less than 1 percent of all
suppliers received total annual payments of $50,000 or more, accounting for over one-
quarter of all payments. In contrast, no supplier received total payments that
exceeded $50,000 in 1990. While 60 percent of the suppliers received total payments
of $100 or less in 1990, the number dropped to 40 percent in 1993. The following
table details incontinence payments by supplier between 1990 and 1993.

Table 4. Incontinence Payments Per Supplier




  Under $100             60.0             3.3              39.3              0.8
    $100-$199            9.0              2.5              10.9              1.0
    $200-$499            12.9             8.2              16.9              3.5
    $500-$999            7.4              10.2             12.2              5.4
  $1,000-$4,999          8.9              37.0             15.4              19.1
  $5,000-$9,999          1.1              14.5              2.7              11.7
 $10,000-$49,000         0.8              24.4              2.2              30.9
 $50,000+                0.0              0.0               0.5              27.5

In 1993, 10.3 percent of beneficiaries received services over $2,000 and accounted for
57 percent of allowances. In 1990, payments were less concentrated in such large
payments. only 21 percent of allowances were made to beneficiaries who received
$2,000 or more in services. In 1990, 53 percent of beneficiaries received $100 or less
in incontinence supplies, while 33 percent received comparable payments in 1993.
The table on the next page details allowances by beneficiary.




                                           6

Table 5. Incontinence Allowances Per Beneficiary




QUESTIONABLE BILLING PRACTICES MAY ACCOUNT FOR ALMOST
ONE-HALF OF ALL INCONTINENCE ALLOWANCES IN 1993

Medicare allowed $107 million in 1993 for supplies related to questionable billing
practices. This represents 47 percent of the $230 million in allowances. About
$88 million was paid for incontinence accessories for beneficiaries who did not receive
a prosthetic device. Additional payments of $19 million were made for certain
prosthetic devices that appear to have excessive utilization. These billing practices are
concentrated in one carrier, few suppliers, and few beneficiaries.

Accessoti   bilkd withoutprostheticdevicesdo not meet Medicareguidelines.

In order for Medicare to pay for incontinence accessories the beneficiary must have a
prosthetic device such as a catheter or a urinary collection device. However,
$88 million was allowed for accessories that were not billed with a prosthetic device.
As shown in the table on the next page, virtually all allowances that did not meet
Medicare guidelines were for just three supplies. The supplies were sterile saline
solutions, irrigation syringes, and lubricants. In total, these three supplies account for
94 percent of the $88 million in questionable billings. As a further check, we reviewed
Part B services provided to 96 beneficiaries with large Medicare allowances and found
that very few beneficiaries received other durable medical equipment for which these
supplies would have been appropriate.




                                            7

Table 6. Accessories Billed Without Catheter or Collection Device




 Saline Solution                       I         6,467,500      I       $29 million
 Syringe                                         10,268,200             $31 million
                                                                                            I


Utikztiknfor certaihprostheticdevicesappean excessive.

As much as $19 million in allowances may have been overpaid if the proposed
DMERC utilization standards had applied to certain prosthetic devices in 1993. Over
$11 million in 1993 was allowed for female external urinary collection pouches
(A4328) that exceed the proposed DMERC guidelines of one per day. We are aware
that at least one supplier was paid for 186 per month, or 6 per day. Another $8
million was allowed for beneficiaries who received more than one indwelling catheter
per month. The proposed DMERC policy calls for no more than one indwelling
catheter per month for routine maintenance. Additional catheter changes are covered
only if documentation substantiates medical necessity.

FloridaBlue Shiekiaccountedfor most of the questionableallowancm.

Florida Blue Shield accounted for $78 million (89 percent) of $88 million in Medicare
allowances for accessories not billed in conjunction with a catheter or external urinary
collection device. Over 90 percent of the allowances were for just three supplies:
irrigation syringes, sterile saline solutions, and lubricants. Almost 70 percent of the
allowances for female external urinary collection pouches was also through Florida
Blue Shield.

The allowances for the indwelling catheters that exceeded one per month involved
numerous carriers. Four carriers accounted for over 40 percent of allowances. The
carriers were Pennsylvania Blue Shield (15 percent), Illinois Blue Shield (10 percent),
Blue Shield of Greater New York (9 percent), and Nationwide of Ohio (7 percent).
The remaining 60 percent was paid by 44 other carriers.

Allowanceswereconcentratedinfm suppliem

Approximately 5 percent of suppliers (19 in the sample of 471) accounted for over
three-quarters of the accessories billed without catheters or external urinary collection
devices. All but one of these suppliers were paid by Florida Blue Shield.




                                            8

Ten suppliers in our sample accounted for all payments for female external urinary
collection pouches. All but three of the suppliers were paid by Florida Blue Shield.
Only 3 of the 11 codes used to reimburse indwelling catheters showed any
concentration of allowances for suppliers. For each of these codes, A4311, A4313,
and A43 15, one supplier received at least two-thirds of all allowances in our sample.
The remaining allowances was shared by several suppliers.

Few benejkiariesreceivemost of the allowarum.

A total of 821 beneficiaries (28 percent from the sample of 2,927) received accessories
without a prosthetic device. At least 360 of these beneficiaries were billed for
irrigation syringes, sterile saline solutions, and lubricants.

All the excessive allowances for female collection pouches were made to 3 percent of
beneficiaries sampled. For each of the indwelling catheter codes except A4338, all
excessive payments were made to 1 percent to 6 percent of the beneficiaries sampled.
However, almost one-third of the beneficiaries in our sample received more than one
catheter per month of those billed under A4338.

A PROPOSED CHANGE IN DMERC POLICIES WILL PROBABLY ADDRESS
QUESTIONABLE BILLING PRAC17K!ES.

Inconsistencies and the lack of clear utilization guidelines and controls among carriers
contributed to the large number of questionable incontinence claims paid by Medicare
in 1993. Current DMERC policies, while more consistent, still do not contain clear
coverage definitions. A proposed draft DMERC policy further clarifies covered
services and provides a mechanism to link incontinence accessory supplies to
prosthetic devices.

l%vicmr cam”erpolicierdid not containckar guidknceon coverageand appropriate
utilization

We reviewed policies of three carriers which were among the highest in incontinence
allowances for 1993 and found that their guidelines differed for the same types of
supplies. For example, for one indwelling catheter code, one carrier allowed two per
month while another allowed eight. For one supply code, one carrier allowed 4 per
day, the second allowed 1 per week, and the third allowed 30 per month. For the
female urinary collection device (A4328), an item with a large number of questionable
allowances, two carriers had no utilization guidelines and the third allowed four per
month.

The carrier with the highest questionable allowances for 1993 had no frequency or
utilization controls for any incontinence supplies except for two intermittent catheter
codes. Neither this carrier nor the two other carriers had controls to prevent
allowances for incontinence supplies when billed without a prosthetic device.



                                            9

Currentpolicieq whik strongm,do not go far enough.

Current DMERC policies categorize the incontinence supplies benefit under coverage
of prosthetic devices. For a prosthetic device to be covered, “the physician must
certify that the condition resulting in the need for the device is of long and indefinite
duration (at least 3 months).”

All four DMERCS have utilization controls for indwelling catheters, limiting the
number of catheters to two per month for routine maintenance. Three DMERCs
have strengthened coverage policies for lubricant, stating that it can no longer be
reimbursed as a separate supply since it is included in catheter insertion trays.

The DMERCS have also adopted a uniform certificate of medical necessity form. This
certificate must be filled out, signed, and dated by the ordering physician and kept on
file by the supplier.

Not all DMERCS have computer edits or controls in place to ensure that supplier
claims conform with DMERC policies. While all four DMERCS have a utilization
standard for indwelling catheters, only two have computer edits. Only one DMERC
has an on-line edit to check claims for particular supplies to ensure that the certificate
of medical necessity adequately supports the use of these supplies.

Even though the DMERC manuals limit payment for supplies to those that are for the
effective use of a prosthetic device, DMERCS do not have controls to prevent
payment for incontinence supplies when the beneficiary has neither a catheter nor an
external urinary collection device. Without these controls, Medicare will continue to
pay for incontinence supplies that do not meet Medicare coverage guidelines.

l% draftDMERCpolicy providesunform coverageand utilizationstkmdardr
                                                                  thutwill
ikadto improvedprocessingof incontinencesupp~ cliziins.

The proposed DMERC national guidelines on urological supplies will prevent
Medicare payment for supplies not used with covered prosthetic devices. As the draft
policy clearly states, “urological supplies that are not used with catheters or external
urinary collection devices will be denied as noncovered.” It provides even more
explanation in the case of sterile saline solution and irrigation syringes by maintaining
that “irrigation supplies that are used for care of the skin and/or perineum of
incontinent patients are not covered.”

The new policy requires suppliers to add a modifier to urological supply codes when
the supplies are used with a catheter or external urinary collection device. The new
ZX modifier, as it is known, would be added to the end of a code submitted on
claims for catheters, external urinary collection devices, or supplies required for the
effective use of one of these items. The modifier indicates that “specified coverage
criteria in the medical policy have been met and documentation is available in the
supplier’s records.”


                                            10
If this policy is implemented and claims processing controls are created to ensure that
required modifiers are used, large numbers of questionable allowances such as those
found in 1993 can be avoided. If the policy had been implemented in 1993, Medicare
and beneficiaries could have saved as much $88 million in questionable payments.

The proposed policy provides more explicit definitions of covered items. It clearly
defines female urinary collection devices, insertion trays, and anchoring devices. It
also lists supplies sometimes paid for previously that will no longer be covered since
they are not required for the effective use of incontinence prosthetic devices (e.g. skin
barriers and appliance cleaners).

The policy also contains utilization standards for many incontinence supplies. For
instance, no more than one indwelling catheter per month will be covered for routine
catheter maintenance. The new policy allows only one male external catheter and one
female pouch collection device per day. These new utilization standards coupled with
computer edits or controls should significantly decrease the number of excessive
incontinence supplies billed to Medicare.




                                            11

                              NEXT              STEPS

Iiacontinence
            Supplies

In response to the information presented in this report and a companion report, the
Office of Inspector General (OIG) plans to:

       o	     initiate an audit review to examine in more detail payments made for
              incontinence supplies in order to determine if any overpayments are
              involved in this area; and

       o	     launch a national investigation in this area, examining potentially
              fraudulent practices by specific suppliers of incontinence supplies.

We also support ongoing activity in HCFA and the DMERCS to develop more specific
coverage guidelines and educate providers and suppliers about proper billing for such
supplies. We hope the information contained in this report is helpful as they complete
this activity.

OIG Studia of OtherNumihgHome Supplies

The OIG will continue studies     and audits related to its major initiative examining
services and supplies provided    to Medicare beneficiaries residing in nursing facilities.
As this report and other OIG      work has reflected, the fragmentation of billing for
services and supplies provided    to residents of nursing homes has created a host of
improper incentives for billers   to the Medicare program.

“Bundli@ of Services

We continue to support HCFA’S efforts to pursue a systematic solution to these kinds
of problems through a requirement for “bundling” of sewices in nursing home settings.
Under such an approach, the nursing home would be responsible for providing
commonly needed services to residents of that facility, rather than allowing for
separate billing by suppliers. Such a solution would eliminate the incentives suppliers
now have to aggressively seek out patients in nursing homes and market their products
inappropriately in those settings. It would also ensure that nursing homes take on
appropriate responsibilities for services and supplies delivered to residents in their
facilities.




                                              12

                                              APPENDIX                  A


                                        CONFIDENCE INTERVALS


We reported our findings by multiplying 100 by the point estimates in our samples.

The point estimates represent the total allowance, number of supplies, or number of

beneficiaries. The confidence intervals present the range of possible findings at the 95

percent level. The 95 percent confidence level represents approximately two standard

deviations from the sample mean. The two standard deviations, or semi-width, is

determined by multiplying 1.96 by the standard error of the sample mean. The

variance from the point estimate is determined by multiplying the semi-width of by the

sample size. The confidence interval is the plus or minus range of the variance from

the point estimate.


The 95 percent confidence intervals are presented in the following tables.

Table 1. IIKXNItinenceAclivily   19W -1993    (p.4)




Table 2 Inuease in Four Supplies Between 1990 and 1993 (@)




  Irrigation Syringe                                  +/- S.38L600             $679,700
  A4322
                                     1993             +/- $3,308,200         $43,271,800

  Saline Solution                    1990             +/- $1,365,700          $7,035,500
  A4323
                                     1993             +/- $4,888,600         $47,020,200

  Female Pouch                      1990              +/-    $25,160            $18,500
  A4328
                                     1993             +/- $2,643,800         $15.295.200

  Lubricant                          1990             +/-    $333,100          $494,100
  A4402
                                     1993                                    $31,958,300

                                     ... >-
                                     x




  11180=
                                    Ill
                                    ~00

                                    4r.-

  }   Won
  Xwoz
  Iwioz
                                                        APPENDIX                                  A


                                                  CONFIDENCE INTERVALS


We reported our findings by multiplying 100 by the point estimates in our samples.

The point estimates represent the total allowance, number of supplies, or number of

beneficiaries. The confidence intervals present the range of possible findings at the 9S

percent level. The 95 percent confidence level represents approximately two standard

deviations from the sample mean. The two standard deviations, or semi-width, is

determined by multiplying 1.96 by the standard error of the sample mean. The

variance from the point estimate is determined by multiplying the semi-width of by the

sample size. The confidence interval is the plus or minus range of the variance from

the point estimate.


The 95 percent confidence intervals are presented in the following tables.

Table 1. l.amntinemce Activity              1990-1993   (p.4)




-41990

  1991
              +/-

          II +/-
                    $5,839,100

                    $7,544,939
                                      I
                                         $87,%9,900

                                      I $107,504,300
                                                                +/- 10,OOO
                                                                +/- 10,OOO
                                                                                        312,200

                                                                                   I 334,300           II
                                                                                                            +/- $19

                                                                                                            +/- $23         I
                                                                                                                                 $282

                                                                                                                                 $322


---1
  1992

  1993
              +/-   $.8,%3,442

          II +/- $15,579,562
                                      I
                                        $118,970,400

                                      I $229,949,200
                                                                +/- 10,OOO
                                                                +/- 10,OOO
                                                                                        281,400

                                                                                        292,700
                                                                                                       ,1
                                                                                                            +/- $32

                                                                                                            +/- $53
                                                                                                                            ,
                                                                                                                                 $423

                                                                                                                                 $786



Table 2 Increase in Four         Sup$iiea     Between   1990 and 1993 (p~




  Irrigation Syringe                            1900                 +/-     $381,600                                 $679,700
  A4322
                                                1993                 +/- $3,308,200                             $43,271,800

  Saline Solution                               1990                 +/- $1,365,700                              $7,035,500
  A4323
                                                1993                 +/- $4,888,600                             $47,020,200

  Female Pouch                                  1990                 +/-      $25,160                                  $18,500
  A4328                                                  I                                         I
                                                1993                 +/- $2,643,800                             $15,295,200

  Lubricant                                     1990                 +/-     $333,100                                 $494,100
  A4402
                                                1993                 +1- $2,766,300                             $31,958,300




                                                                           A-1

II Female Pouch                                     I               +/- $3.070,135                I       $11,117300


II Indwelling Catheter                              I               +/- $1,644,595                I        $S,156,900   II




II Acxeaaonea w/o Prosthetic Deviee                 I               +/-$10,7S4,752                I       $87,570300    II





Table 4. Wine     Solutioq   _          ad   Ldxicant       Bfled WMmut Prodebe “ Device (p.q





  Irrigation Syringe
  A4322
                                 No. of Supplies

                                 Aflowance
                                                        I
                                                                     +/-   1,23s,503

                                                                     +/- $3,6ss,280
                                                                                                      I
                                                                                                           10,26s,200

                                                                                                          $30,s45,900
                                                                                                                            I
                             1                          I                                             I                 I

  Lubricant                      No. of Supplies                     +/-   1,562,456                       11,312,S00
  A4402
                                 Allowance                           +/- $3,027,SSS                       $21,914,501



Tabfe 5. Florida Blue Shield AUowamx of Acasamk                  Wltbout
                                                                      Prosthetic       Device   (#3)




                                                                       A-2

